Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    STATES’ COLLECTION OF
    MEDICAID REBATES FOR
   PHYSICIAN-ADMINISTERED
            DRUGS




                    Daniel R. Levinson
                     Inspector General

                       June 2011
                     OEI-03-09-00410
   E X E C U T I V E                                       S U M M A R Y


                  OBJECTIVES
                  1. To determine the number of States that met Federal requirements
                     for the collection of rebates for certain physician-administered
                     drugs by June 30, 2009.
                  2. To estimate the dollar amount of rebates that States requested and
                     collected from manufacturers for all physician-administered drugs in
                     the first and second quarters of 2009.
                  3. To identify issues that prevented States from collecting rebates for
                     all physician-administered drugs that were requested from and/or
                     owed by manufacturers in the first and second quarters of 2009.


                  BACKGROUND
                  In general, drug manufacturers are required to pay rebates to States for
                  drugs covered under their Medicaid programs. However, a prior Office
                  of Inspector General report found that only 17 States collected rebates
                  from manufacturers for physician-administered drugs in 2001. At that
                  time, many States did not have a system to determine the
                  manufacturer responsible for paying the rebate for these drugs and
                  therefore did not collect the rebates owed. Subsequently, the Deficit
                  Reduction Act of 2005 (DRA), P.L. 109-171, specifically required that
                  States collect rebates on all claims for certain physician-administered
                  drugs for Federal matching funds to be available to the States. To
                  assist in meeting this requirement, the DRA also mandated that claims
                  for certain physician-administered drugs include national drug codes
                  (NDC), a type of drug code that identifies a drug’s manufacturer,
                  thereby enabling States to invoice manufacturers responsible for paying
                  rebates. Since the passage of the DRA, the Centers for Medicare &
                  Medicaid Services (CMS) has taken numerous steps aimed at
                  ensuring that States meet the new rebate requirements for
                  physician-administered drugs.
                  To each of the 50 States participating in the Medicaid drug rebate
                  program, we sent a request for first- and second-quarter 2009
                  reimbursement and rebate data on physician-administered drugs. We
                  also requested that each State complete a survey about the State’s
                  policies, procedures, and controls used to process physician-
                  administered drug rebates. Forty-eight States responded to the data
                  request and 49 States completed the survey. Using data and survey
                  responses, we determined the extent of DRA compliance among the

OEI-03-09-00410   S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   i
E   X   E C     U T   I     V      E            S      U M              M      A       R Y


                          States and identified common issues preventing States from collecting
                          all the rebates for physician-administered drugs that manufacturers
                          owe. We also calculated the dollar amount States paid and the amount
                          of rebates States requested and collected for physician-administered
                          drugs in the first and second quarters of 2009.


                          FINDINGS
                          By June 2009, 73 percent of responding States reported meeting or
                          exceeding the DRA’s requirement to collect rebates for certain
                          physician-administered drugs. As of June 30, 2009, 36 of
                          49 responding States reported collecting rebates on all single-source,
                          physician-administered drugs and the 20 multiple-source,
                          physician-administered drugs with the highest dollar volume, as
                          required by the DRA. An additional 12 States reported collecting
                          rebates on a subset of physician-administered drugs, but were not in full
                          compliance with the DRA’s rebate requirements. Only one State
                          reported that it did not collect rebates on any physician-administered
                          drugs.
                          Additionally, as of June 2009, 42 of 49 responding States (86 percent)
                          reported meeting the DRA’s requirement to collect NDCs on claims for
                          certain physician-administered drugs. States may have collected NDCs
                          for physician-administered drugs and still not have met the DRA’s
                          rebate collection requirements.
                          We could not determine the financial impact of collecting rebates for
                          physician-administered drugs because of incomplete and
                          potentially inaccurate data provided by States. For the first and
                          second quarters of 2009, the 26 States that provided complete rebate
                          data reported recouping between 3 and 96 percent of the amount paid
                          for physician-administered drugs by collecting rebates. States also
                          varied widely in the amount they reported spending on physician-
                          administered drugs and the percentage of rebates they reported
                          requesting. Although some variation among States’ rebate figures
                          would be expected, this degree of variation calls into question the
                          reliability and accuracy of the data provided. For these reasons, we
                          were unable to calculate the total rebate dollars all States collected and
                          therefore could not determine the financial impact rebate collections
                          had on reducing prescription drug expenditures.
                          The 26 States that provided complete data reported paying $577 million
                          for physician-administered drugs, requesting $148 million in rebates,

    OEI-03-09-00410       S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   ii
E   X   E C     U T   I     V      E            S      U M              M      A       R Y


                          and collecting $112 million in rebates during the first and second
                          quarters of 2009. An additional 19 States, which reported paying
                          approximately $355 million for physician-administered drugs in the
                          first and second quarters of 2009, either could not provide data on the
                          amount of rebates collected for physician-administered drugs or
                          reported accuracy issues with the collections data that they provided.
                          Three additional States did not provide rebate data because they had
                          not invoiced manufacturers for the first half of 2009 rebates for
                          physician-administered drugs.
                          Twenty-nine States reported difficulties with nonpayment of the
                          requested rebates for physician-administered drugs. In total,
                          29 States reported difficulties with manufacturer nonpayment of the
                          rebates requested for physician-administered drugs. These difficulties
                          were attributed mainly to providers that entered incorrect NDC
                          information (particularly the number of units billed) on claims for these
                          drugs. Manufacturers also questioned the validity of the NDCs or the
                          number of units listed on the rebate invoices and requested additional
                          information before making the rebate payments. Seven States
                          mentioned data issues with the CMS crosswalk file; several of these
                          emphasized the need for a comprehensive, universal, and accurate
                          crosswalk file for all States to use, specific only to rebateable physician-
                          administered drugs.
                          Eighteen States reported that Medicare crossover claims (i.e., claims for
                          beneficiaries who are eligible for both Medicare and Medicaid and for
                          which Medicaid receives rebates even if it paid only a small portion of
                          the claim) for physician-administered drugs do not typically include
                          NDCs. Without an NDC, a State would not be able to identify the
                          appropriate manufacturer to bill for rebates and would not be able to
                          collect rebates for these claims.
                          Twelve States reported that certain manufacturers refused to pay
                          rebates or consistently disputed requested payments. For example, one
                          State described a few manufacturers that have not responded to any
                          rebate invoices.
                          Thirty-one States had not implemented certain steps necessary for
                          collecting rebates on all eligible physician-administered drugs
                          purchased by 340B entities. States may collect rebates for physician-
                          administered drugs when the 340B entity (i.e., an entity with statutory
                          access to discounted drug prices) purchases the drug at the Medicaid
                          rate (as opposed to the discounted 340B rate). However, 31 States did

    OEI-03-09-00410       S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   iii
E   X   E C     U T   I     V      E            S      U M              M      A       R Y


                          not have an edit to identify physician-administered drug claims
                          submitted by 340B entities and/or did not require NDCs on 340B claims
                          for physician-administered drugs eligible for rebates. Without edits to
                          identify the claim itself or an NDC to identify the correct manufacturer
                          to invoice, it would have been very difficult, if not impossible, for States
                          to collect the rebates.


                          RECOMMENDATIONS
                          The DRA mandated that States collect rebates for certain
                          physician-administered drugs for Federal matching funds to be
                          available. According to States’ responses, the majority met the DRA’s
                          requirements as of June 2009; however, many States reported
                          difficulties that would have prevented them from collecting all rebates
                          owed for these drugs. In a time when many States are experiencing
                          financial difficulties, eliminating delays and inefficiencies with rebate
                          collections could provide States with an additional source of funds in a
                          timelier manner. Although CMS has undertaken numerous steps to
                          ensure that States comply with the DRA’s requirements for these drugs,
                          the findings of this report show that substantial issues remain and need
                          to be addressed. To assist in this, we recommend that CMS:
                          Take action against States that do not meet the DRA’s requirement
                          to collect rebates on physician-administered drugs.
                          Ensure that all State agencies are accurately identifying and
                          collecting physician-administered drug rebates owed by
                          manufacturers.
                          Work with States to develop guidance for implementing edits that
                          increase the efficiency of physician-administered drug claim
                          reviews.
                          Work with States to administer guidance to providers and
                          Medicare contractors about the rebate requirements for
                          physician-administered drugs.
                          Ensure that the crosswalk file is complete, accurate, and identifies
                          rebateable physician-administered drugs.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with our first three recommendations. In concurring,
                          CMS stated that before taking any action against States, it needs to

    OEI-03-09-00410       S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   iv
E   X   E C     U T   I     V      E            S      U M              M      A       R Y



                          learn more about the systemic problems preventing States from
                          collecting rebates for physician-administered drugs. CMS stated that it
                          will reiterate the DRA rebate requirements in a release to States, as
                          well as provide technical assistance. CMS stated that if a State does not
                          meet these rebate requirements, it may consider withholding Federal
                          matching funds in the future, although the agency anticipates its
                          additional assistance will make such actions unnecessary.
                          CMS did not concur with our fourth recommendation, that it administer
                          guidance to providers and Medicare contractors about the
                          physician-administered drug rebate requirements. The agency
                          generally considers direct provider communication to be within the
                          States’ purview and has therefore left this responsibility to them. CMS
                          maintains that Medicare contractors are aware of these requirements
                          and have established procedures to accept NDCs on crossover claims.
                          We have modified our original recommendation slightly to address
                          CMS’s statement that provider communication is the responsibility of
                          the States. However, because States reported that providers and
                          Medicare contractors often did not provide or provided incorrect NDC
                          information, we continue to believe that additional communication and
                          education are warranted.
                          CMS also did not concur with our fifth recommendation, that it ensure
                          the accuracy and completeness of the crosswalk file, stating that the
                          DRA's NDC requirements render this file unnecessary. However, our
                          findings show that the crosswalk file is still being relied upon by certain
                          States, and we therefore continue to recommend that CMS ensure that
                          States have access to a reliable crosswalk file.




    OEI-03-09-00410       S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   v
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                    By June 2009, 73 percent of responding States reported
                    meeting or exceeding the DRA’s requirement to collect rebates
                    for certain physician-administered drugs . . . . . . . . . . . . . . . . . . . . 13

                    We could not determine the financial impact of collecting rebates
                    for physician-administered drugs because of incomplete and
                    potentially inaccurate data provided by States . . . . . . . . . . . . . . . 14

                    Twenty-nine States reported difficulties with nonpayment of the
                    requested rebates for physician-administered drugs . . . . . . . . . . . 18

                    Thirty-one States had not implemented certain steps necessary for
                    collecting rebates on all eligible physician-administered drugs
                    purchased by 340B entities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                    Agency Comments and Office of Inspector General Response. . . . 26


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
                    A: Detailed Description of the Medicaid Drug Rebate
                       Calculation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

                    B: State Responses About the Deficit Reduction Act
                       of 2005 Requirements for Physician-Administered
                       Drugs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

                    C: Physician-Administered Drug Data Reported by States for
                       the First Half of 2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine the number of States that met Federal requirements
                     for the collection of rebates for certain physician-administered
                     drugs by June 30, 2009.
                  2. To estimate the dollar amount of rebates that States requested and
                     collected from manufacturers for all physician-administered drugs
                     in the first and second quarters of 2009.
                  3. To identify issues that prevented States from collecting rebates for
                     all physician-administered drugs that were requested from and/or
                     owed by manufacturers in the first and second quarters of 2009.


                  BACKGROUND
                  In general, drug manufacturers are required to pay rebates to States
                  for drugs covered under their Medicaid programs. Although this
                  requirement has always included rebates for physician-administered
                  drugs, a prior Office of Inspector General (OIG) report found that only
                  17 States collected Medicaid rebates from manufacturers for
                  physician-administered drugs in 2001. 1 At that time, many States did
                  not have a system to identify the manufacturer responsible for paying
                  the rebates for these drugs. In that report, we also found that the
                  savings from rebates in 1 year can exceed the one-time cost of
                  implementing the system changes necessary to collect rebates.
                  Following the release of that OIG report, the Deficit Reduction Act of
                  2005 (DRA), P.L. 109-171, was passed. It specifically required States
                  to collect rebates for certain physician-administered drugs for Federal
                  financial participation (FFP)2 to be available. 3 To assist in meeting
                  this requirement, the DRA also mandated that claims for
                  certain physician-administered drugs include the national drug code
                  (NDC) for each drug. The NDC is an 11-digit numeric code, which is
                  divided into three segments identifying (1) the firm that
                  manufactures, distributes, or repackages the drug; (2) the specific


                    1 OIG, Medicaid Rebates for Physician-Administered Drugs (OEI-03-02-00660), April

                  2004.
                    2 FFP refers to matching funds provided to States by the Federal Government for

                  certain social services, including Medicaid.
                    3 Section 1927(a)(7) of the Social Security Act (the Act), as added by section 6002 of the

                  DRA.



OEI-03-09-00410   S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   1
I   N T    R O        D   U      C T           I     O      N


                              strength, dosage form, and formulation of the product for a particular
                              firm; and (3) the product’s package size. By implementing the DRA’s
                              requirement to include the NDC, States could identify and invoice the
                              manufacturers responsible for paying rebates. The Centers for
                              Medicare & Medicaid Services (CMS) estimated that by implementing
                              the DRA rebate provisions, States could potentially reduce
                              prescription drug expenditures by $179 million between 2007 and
                              2011.4 To assist States with the implementation, CMS sent letters to
                              State Medicaid Directors, released news flashes, and followed up with
                              States to offer technical support and encourage readiness.
                              Medicaid Drug Rebate Program
                              Currently, all 50 States and the District of Columbia offer prescription
                              drug coverage as part of their Medicaid benefit packages. In 2009,
                              Medicaid expenditures for prescription drugs totaled $26 billion.5
                              Congress created the Medicaid drug rebate program to reduce State
                              and Federal Medicaid expenditures for prescription drugs.6 For FFP
                              to be available for covered outpatient drugs provided under Medicaid,
                              manufacturers are required to enter into rebate agreements with the
                              Secretary of Health & Human Services (the Secretary) and pay
                              quarterly rebates to State Medicaid agencies. 7 As of April 2010,
                              49 States and the District of Columbia, 8 and approximately
                              550 pharmaceutical companies, participated in the rebate program.
                              Medicaid Drug Rebate Process
                              Using pricing data submitted by manufacturers each quarter, CMS
                              calculates a unit rebate amount (URA) for NDCs included in the
                              rebate program (see Appendix A for a detailed description of the rebate
                              calculation). After calculating URAs for all NDCs, CMS provides the
                              amounts to State Medicaid agencies. Within 60 days after the end of
                              the quarter, each State Medicaid agency then sends each
                              manufacturer an invoice with information such as the number of units


                                  4 71 Fed. Reg. 77174, 77190 (Dec. 22, 2006).
                                  5 This was the most recent year for which complete expenditure data were available.
                                  6 The Omnibus Budget Reconciliation Act of 1990, § 4401, codified at

                              42 U.S.C. § 1396r-8.
                                  7 Sections 1927(a)(1) and (b)(1) of the Act.
                                  8 Hereinafter referred to as States. Arizona currently does not participate in the rebate
                              program, as it was granted a section 1115 waiver that allows it to provide outpatient
                              drugs through managed care organizations that do not meet certain requirements of the
                              Act.



    OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   2
I   N T    R O        D   U      C T           I     O      N


                              reimbursed for each of its NDCs in the State and these reimbursed
                              NDCs’ URAs. To determine the total rebates due from the
                              manufacturer, URAs are multiplied by the total number of units of
                              each NDC for which the States reimbursed providers during the
                              quarter. The manufacturer processes the invoice and pays the rebate
                              to the State within 37 days of the invoice’s postmark date, after which
                              interest begins to accrue (see Figure 1 for a depiction of the rebate
                              process). 9



             Figure 1: Medicaid Drug Rebate Process


                  Manufacturer                     1. Average Manufacturer Price/Best Price Data                                          CMS


                                                                                                                     2. Calculated Unit
                  4. Rebate                                                                                               Rebate
                                                                        3. Rebate                                         Amount
                                                                      Invoice With
                                                                     Utilization Data


                                                                                           State Medicaid
                                                                                              Agency




                              Rebate exception for 340B entities. Section 340B of the Public Health
                              Service Act established the 340B Drug Pricing Program, which
                              requires pharmaceutical manufacturers to enter into an agreement to
                              charge at or below the statutorily defined prices for sales to certain
                              qualified entities.10 Drug purchases that qualify for discounted 340B
                              rates are not subject to a Medicaid rebate because this would result in
                              duplicate discounts from manufacturers.



                                9 A manufacturer may dispute the accuracy of the invoice submitted by the State. To
                              address the problem of unpaid and disputed rebates, CMS implemented the Medicaid
                              Drug Rebate Dispute Resolution program. Through this program, CMS provides
                              mediation and clarification to assist manufacturers and States in identifying and
                              resolving Medicaid drug rebate disputes.
                                  10 Qualified entities include Ryan White grantees and disproportionate share hospitals,

                              among others. The statutory requirements of the 340B Drug Pricing Program are set
                              forth in 42 U.S.C. § 256b.



    OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS          3
I   N T    R O        D   U      C T           I     O      N


                              However, in some cases, a 340B entity may choose to purchase
                              “off 340B contract” and bill the State at the regular Medicaid rate
                              instead of the discounted rate. The State would then invoice
                              manufacturers for rebates for these drugs.11
                              Medicaid Rebates for Physician-Administered Drugs
                              Drugs covered under Medicaid are typically self-administered products
                              dispensed by pharmacies. However, physician-administered drugs are
                              also covered under the rebate program.12 Physician-administered
                              drugs include both injectable and noninjectable drugs and are typically
                              administered by medical professionals in physicians’ offices, clinics, or
                              hospitals. In 2009, Medicaid spent approximately $4 billion on
                              physician-administered drugs. 13 Single-source drugs (i.e., brand-name
                              drugs) accounted for a substantial majority of this spending (over
                              90 percent).14
                              Rebate collections for physician-administered drugs prior to the DRA’s
                              requirements. Manufacturers with signed rebate agreements are
                              required to pay rebates to States for covered outpatient drugs.15 Even
                              though this requirement has always included physician-administered
                              drugs, before provisions of the DRA were implemented, many States
                              could not always determine the manufacturer responsible for paying
                              the rebates and therefore had difficulty collecting the rebates that
                              were owed.16
                              At this time, physicians and institutions often submitted claims for
                              drugs to State Medicaid agencies using codes from the Healthcare
                              Common Procedure Coding System (HCPCS) (in contrast to pharmacy
                              claims, which list NDCs). 17, 18 Unlike the NDC, the HCPCS code does
                              not identify the manufacturer responsible for paying a rebate. States


                                11 CMS, Dispute Resolution – Best Practices Suggestions for Resolving 340B-Related
                              Disputes. Accessed at http://www.cms.gov on August 24, 2010.
                                  12 Sections 1927(k)(2) and (a)(7) of the Act (as added by the DRA).
                                  13 CMS, State Drug Utilization Data. Accessed at http://www.cms.gov on

                              July 26, 2010.
                                  14 Ibid.
                                  15 Vaccines are exempt from the rebate requirement.
                                  16 71 Fed. Reg. 77174, 77188 (Dec. 22, 2006).
                                17 OIG, Medicaid Rebates for Physician-Administered Drugs (OEI-03-02-00660),

                              April 2004.
                                18 A HCPCS code identifies the drug’s name, route of administration, and dosage size,

                              but does not identify the manufacturer or package size.



    OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   4
I   N T    R O        D   U      C T           I     O      N


                              that were billed using only HCPCS codes for single-source drugs could
                              generally link the codes to NDCs using CMS’s crosswalk file because
                              most HCPCS codes for these drugs include only NDCs from one
                              manufacturer. 19 However, if a State was billed with a HCPCS code for
                              a multiple-source drug, identifying the manufacturer was difficult, as
                              a single HCPCS code may represent drugs from more than one
                              manufacturer. 20
                              Rebate collections for physician-administered drugs after the DRA’s
                              requirements. The DRA specifically requires States to provide for the
                              collection of rebates from manufacturers for all single-source and
                              certain multiple-source, physician-administered drugs for Federal
                              matching funds to be available to the States. To that end, effective
                              January 1, 2006, States must provide for the collection and submission
                              of utilization data for all single-source, physician-administered
                              drugs. 21 As of January 1, 2008, States must also provide for the
                              collection and submission of similar data for the 20 multiple-source,
                              physician-administered drugs with the highest Medicaid dollar
                              volume. 22 No later than January 1, 2007, the Secretary was required
                              to publish the list of the 20 highest dollar volume multiple-source,
                              physician-administered drugs and may modify the list yearly as drug
                              volumes change. 23 This list was most recently updated in
                              January 2011 and, for each of the 20 multiple-source drugs, contains
                              the corresponding HCPCS code, the drug’s description, the HCPCS
                              dosage, the drug name, any associated NDCs, and the manufacturer
                              name.
                              To assist in meeting the DRA rebate collection requirements, as of
                              January 1, 2007, claims for all single-source, physician-administered
                              drugs and the 20 multiple-source, physician-administered drugs with
                              the highest dollar volume are required to include NDCs. 24, 25 The new


                                19 CMS creates a quarterly crosswalk file that links drug HCPCS codes to their
                              applicable NDCs.
                                20 A drug from one manufacturer can have more than one NDC, but the HCPCS (and
                              therefore all of its associated NDCs) for this drug would only apply to one manufacturer.
                                  21 Section 1927(a)(7)(A) of the Act.
                                  22 Sections 1927(a)(7)(B)(i) and (ii) of the Act.
                                  23 Section 1927(a)(7)(B)(i) of the Act.
                                  24 Section 1927(a)(7)(C) of the Act.
                                  25 The Secretary may designate an alternative coding system, although only NDCs

                              have been specified to date.



    OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   5
I   N T    R O        D   U      C T           I     O      N


                              NDC requirement also applies to claims for dual-eligible beneficiaries
                              (i.e., beneficiaries who qualify for Medicare and Medicaid). Medicare
                              providers billing for dual-eligible beneficiaries are required to enter
                              the NDC and the drug quantity on claims for physician-administered
                              drugs. 26 Medicare providers submit these claims to Medicare
                              contractors, which then transfer the NDC information to Medicaid for
                              the billing of Medicaid rebates (referred to as a crossover claim). By
                              including the NDC information on crossover claims, States can
                              identify manufacturers to bill for Medicaid rebates, where applicable.
                              This enables Medicaid to receive rebates on a crossover claim, even if
                              it paid only a small portion of the claim.
                              CMS Actions To Assist States in Meeting the DRA Rebate Requirements
                              Since the passage of the DRA, CMS has completed numerous actions
                              aimed at ensuring that States meet the new rebate requirements for
                              physician-administered drugs. In preparation for implementing the
                              DRA provisions, CMS sent a letter to all State Medicaid Directors on
                              July 11, 2006.27 This letter introduced States to the new procedures
                              regarding State collection and submission of data for the purpose of
                              collecting Medicaid rebates for physician-administered drugs from
                              manufacturers.
                              The July 2006 letter also informed States that CMS would be willing
                              to grant extensions if the States needed more time to implement the
                              new requirements regarding the collection and submission of data. 28
                              Thirty-six States requested and received extensions. Even allowing
                              for these extensions, all States should have been in compliance with
                              the DRA requirements no later than July 1, 2008. Prior to this date,
                              CMS followed up with States through surveys and phone calls to offer
                              technical assistance and support and to encourage readiness among
                              States. 29



                                  26 CMS, Medicare Claims Processing Manual, Pub. No. 100-04, Transmittal 1401.
                                  27 CMS, Letter to State Medicaid Directors, SMDL Number 06-016. Accessed at

                              http://www.cms.gov on January 6, 2011.
                                 28 To prevent hardship to States, section 1927(a)(7)(D) of the Act allowed the Secretary

                              to delay implementation for the States that needed additional time to meet the DRA
                              requirements.
                                  29 Before the extensions expired, CMS surveyed States to determine their progress
                              with meeting the DRA requirements. CMS asked questions such as whether the
                              necessary system changes to capture NDCs and bill manufacturers for rebates were
                              completed and whether providers were notified of the NDC requirement.



    OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   6
I   N T    R O        D   U      C T           I     O      N


                              Furthermore, to address the need for rebates on claims submitted for
                              dual-eligible beneficiaries, CMS developed a method to capture NDCs
                              on crossover claims. CMS informed Medicare providers that they were
                              responsible for submitting NDCs on crossover claims in addition to
                              HCPCS codes. CMS published news flashes to make the involved
                              parties aware of this requirement.30
                              Previous OIG Work
                              The April 2004 OIG report entitled Medicaid Rebates for
                              Physician-Administered Drugs (OEI-03-02-00660) reported that
                              31 States did not collect any rebates for physician-administered
                              drugs; 14 States collected rebates on only single-source,
                              physician-administered drugs; and 3 States collected rebates on both
                              single-source and multiple-source, physician-administered drugs in
                              2001.31 If all States had collected rebates for all single-source and
                              certain multiple-source, physician-administered drugs, 32 Federal and
                              State Medicaid expenditures could have been reduced by $37 million
                              during that year. OIG recommended that CMS encourage rebate
                              collection for physician-administered drugs among all States and that
                              CMS encourage States to share information that would facilitate
                              rebate collection. CMS concurred with our recommendation; however,
                              the agency disagreed with our estimated savings figure.33 Subsequent
                              to that report, the DRA imposed the rebate requirements for
                              physician-administered drugs.
                              A July 2005 OIG report entitled Multistate Review of Medicaid Drug
                              Rebate Programs (A-06-03-00048) audited States’ accountability and
                              internal controls over their Medicaid drug rebate programs. We found
                              that only four States had no weaknesses in accountability and internal




                                30 For example, see CMS, MLN Matters Number MM5950. Accessed at

                              http://www.cms.gov on January 6, 2011.
                                31 This report collected data from 49 States (the District of Columbia is defined as a

                              State in this report; Arizona and Tennessee did not participate in the rebate program
                              during the time of this review). Forty-eight States provided responses to our questions
                              and most States provided all or some of the requested financial data.
                                  32 Potential rebates for multiple-source drugs were estimated for only the top

                              40 multiple-source, physician-administered drugs with the highest Medicaid payments in
                              2001.
                                33 CMS noted that the estimated savings did not take into account States which had

                              improved their rebate collection processes since our surveys were conducted.



    OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   7
I   N T    R O        D   U       C T          I     O      N


                              controls.34 Additionally, CMS did not have reliable information to
                              properly monitor the drug rebate program. We recommended that
                              CMS continue to emphasize the requirement that States submit
                              accurate and reliable information and emphasize billing and collection
                              of drug rebates as a high priority. CMS concurred with our
                              recommendations.


                              METHODOLOGY
                              Data Collection
                              In October 2009, we sent data requests and surveys to the 50 States
                              participating in the Medicaid drug rebate program. 35 We received
                              48 responses to the data request 36 and 49 responses to the survey. 37
                              Data requests. We requested that State Medicaid agencies provide us
                              with the following data for all physician-administered drugs 38 paid for
                              by the State in the first and second quarters of 2009:
                              •           drug code (e.g., NDC, HCPCS);
                              •           total number of units paid for by the State for each code;
                              •           total dollars paid by the State for each code;
                              •           total rebate amount the State requested (if any) from the
                                          manufacturer for each code; and
                              •                           total rebate amount the State collected for each code.
                              Although 48 States responded to our data request, only 26 were able to
                              provide all of the requested data (i.e., the total dollars paid, the total
                              rebate amount requested, and the total rebate amount collected). The


                                 34 Specifically, this report documented problems with unreliable information submitted
                              to CMS on the Medicaid Drug Rebate Schedule in 37 States, improper accounting
                              procedures for interest on late rebate payments in 27 States, inadequate rebate collection
                              systems in 17 States, inadequate dispute resolution and collection processes for 15 States,
                              and other significant problems in 13 States (States could be counted in more than
                              1 category).
                                 35 In November, we sent second request letters to States that had not responded to the

                              first request. We then followed up with nonresponding States between December 2009
                              and April 2010.
                                36 Hawaii and Pennsylvania reported that they were unable to provide any of the
                              requested data.
                                  37 We did not receive a survey from Ohio (but the State did provide data).
                                  38 We provided each State with CMS’s definition of a physician-administered drug,

                              consistent with section 1927(k)(2) of the Act.



    OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   8
I     N T       R O       D    U      C T           I     O      N


                                   remaining 22 States provided partial data or did not have any rebate
                                   data to report. In such cases, we analyzed the limited data that the
                                   States were able to provide. In general, States reported that they
                                   could not provide the data because they could not differentiate
                                   between rebates collected specifically for physician-administered drugs
                                   and rebates collected for other drugs covered under Medicaid. See
                                   Table 1 for the overall number of States that provided each type of
                                   data.
    Table 1: Number of States Included in Rebate Calculations


      Data                                                                                                Number of States        Number of States
                                                                                                            That Provided            That Did Not
                                                                                                                     Data            Provide Data

      The amount paid for physician-administered drugs                                                                     45                   3

      The amount paid and the amount of rebates requested for                                                              37                  11*
      physician-administered drugs

      The amount paid, the amount of rebates requested, and the                                                            26                  22
      amount of rebates collected for physician-administered drugs

    Source: OIG analysis of State responses to the data request, 2010.
    * One State was able to provide the amount of rebates requested, but not the amount paid.


                                   Surveys. We requested that States complete electronic surveys about
                                   the policies, procedures, and controls used to process rebates for
                                   physician-administered drugs. We asked States to answer questions
                                   regarding their compliance with the DRA’s requirements for
                                   physician-administered drugs as of the end of the second quarter of
                                   2009. For example, we asked State Medicaid agencies to identify the
                                   types of drugs for which they collected rebates (e.g., all
                                   physician-administered drugs, certain physician-administered drugs,
                                   or no physician-administered drugs) and indicate when they required
                                   providers to include NDCs on professional and institutional
                                   physician-administered drug claims for single-source and
                                   multiple-source drugs.39 For the States that required providers to
                                   include NDCs on physician-administered drug claims, we asked what
                                   changes (if any) the States made to their claims-processing systems to
                                   enable the use of NDCs, what costs they incurred (if any) to


                                       39 Claims submitted directly by physicians are referred to as professional claims;
                                   claims submitted by institutions (e.g., hospital outpatient centers) are referred to as
                                   institutional claims.



      OEI-03-09-00410              S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS          9
I   N T    R O        D   U      C T           I     O      N


                              implement system updates, and whether the States denied claims
                              without NDCs.
                              We also asked States to describe any difficulties with collecting
                              physician-administered drug rebates. In addition, we asked States to
                              answer questions about their claims review processes for physician-
                              administered drugs, particularly with crossover claims and claims
                              submitted by 340B entities.
                              Data Analysis
                              DRA’s requirements for rebate collection of physician-administered drugs.
                              We identified the number of States that reported (1) meeting
                              the DRA’s rebate collection requirement (i.e., collected rebates on
                              all single-source, physician-administered drugs and the
                              20 multiple-source, physician-administered drugs with the highest
                              dollar volume); (2) exceeding the DRA’s rebate collection requirement
                              (i.e., collected rebates on all physician-administered drugs); or (3) not
                              meeting the DRA’s rebate collection requirement (i.e., did not collect
                              rebates or collected rebates for only some of the required drugs). 40 If a
                              State reported that it collected rebates in a manner that met or
                              exceeded the DRA’s rebate requirement, but also reported that it did
                              not deny claims for drugs without NDCs (i.e., claims would be paid for
                              a drug without enough information to invoice the manufacturer
                              responsible for the rebate), we considered that State to not meet the
                              DRA’s rebate requirement. 41
                              Using the dates States reported that they began enforcing the NDC
                              requirement, we calculated the number of States that reported
                              requiring NDCs for single-source and multiple-source,
                              physician-administered drug claims by June 30, 2009. We also
                              calculated the average reported cost to implement system changes to


                                 40 Two States reported that they collected rebates in a manner that met or
                              exceeded the DRA’s rebate requirement (i.e., reported collecting rebates for all
                              physician-administered drugs and would deny claims without NDCs), but that they had
                              not yet invoiced for rebates pertaining to the first half of 2009. Because both States had
                              collected rebates for physician-administered drugs prior to 2009, we considered them in
                              compliance with the DRA’s rebate requirements.
                                 41 States were required to comply with the DRA’s rebate provisions for FFP to be

                              available for physician-administered drugs. Therefore, a State could have technically met
                              the DRA requirements if it did not deny drug claims that failed to include NDC
                              information as long as no FFP was requested. However, because none of the States in
                              question reported not seeking FFP for physician-administered drugs, we concluded that
                              these States did not meet the DRA requirements.



    OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   10
I   N T    R O        D   U      C T           I     O      N


                              enable NDC collection. We then determined from the surveys what
                              these changes entailed.
                              Dollar amount of rebates requested and collected. Although 48 States
                              responded to our data request, only 26 provided complete information
                              on the amount of rebates requested and collected for
                              physician-administered drugs. For each of the 26 States, we summed
                              the total amount reimbursed, the total amount of rebates requested,
                              and the total amount of rebates collected for all drug codes for the first
                              and second quarters of 2009. We then summed this information from
                              all 26 States to calculate overall figures for the first half of 2009.
                              Of the remaining 22 States that responded to our data request,
                              19 were unable to determine the amount of rebates collected. To
                              identify the reasons collections data were not provided, we reviewed
                              information provided by these 19 States and followed up via telephone
                              or email with States when clarification was necessary. Although we
                              were unable to calculate the rebates collected by these 19 States, we
                              summed the data provided by these States for the amount reimbursed
                              (16 States) and rebates requested (12 States).
                              The remaining 3 of the 22 States reported that they had neither
                              requested nor collected any rebates for the first and second quarters of
                              2009. We summed the total amount reimbursed by these three States
                              for physician-administered drugs.
                              States’ difficulties with collecting all physician-administered drug rebates. We
                              determined the number of States that reported difficulties with
                              nonpayment of all the rebates requested for physician-administered
                              drugs. We also reviewed States’ descriptions of any other issues with
                              collecting rebates. To identify common problems that States had, we
                              determined the number of States that provided similar descriptions of
                              issues with manufacturers and providers.
                              We evaluated States’ responses to questions pertaining to the
                              review of 340B claims and Medicare crossover claims for
                              physician-administered drugs and identified circumstances in which
                              the State may not have collected all possible rebates for these claim
                              types. We determined the number of States that did not typically
                              receive NDCs on Medicare crossover claims. We also determined the
                              number of States that had edits to prevent manufacturers from paying
                              duplicate discounts on 340B claims and the number of States with
                              edits to enable rebate collection for eligible physician-administered
                              drug claims submitted by 340B entities.

    OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   11
I   N T    R O        D   U      C T           I     O      N


                              Limitations
                              As previously mentioned, we received complete data from only
                              26 States. The data provided by these States may not be
                              representative of the amount of rebates requested and collected for the
                              States with missing data.
                              The remaining 24 States were unable to provide any or all of the
                              requested data (19 provided a portion of the requested data, 3 had not
                              invoiced manufacturers for rebates for the first and second quarters of
                              2009, and 2 responded that they were unable to provide any of the
                              requested data). However, we did receive complete surveys from these
                              24 States.
                              The findings presented are based on self-reported data and survey
                              responses provided by State Medicaid agencies. Even though we
                              contacted States to clarify their responses to specific questions, we did
                              not verify the accuracy of all data and survey responses provided by
                              each State.
                              Standards
                              This study was conducted in accordance with the Quality Standards
                              for Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   12
      F I N D I N G S

By June 2009, 73 percent of responding States                    As of June 30, 2009, 36 of the
     reported meeting or exceeding the DRA’s                     49 responding States (73 percent)
                                                                 reported being in full
      requirement to collect rebates for certain
                                                                 compliance with the DRA’s
                physician-administered drugs
                                                                 requirement to collect rebates
                            for all single-source, physician-administered drugs and the
                            20 multiple-source, physician-administered drugs with the
                            highest dollar volume. Thirty-one of these States reported
                            exceeding the DRA’s requirements by collecting rebates on all
                            physician-administered drugs. 42

                Table 2: State-Reported Compliance With DRA Rebate Requirements
                as of June 2009

                     Rebates Collected                                                                                             Number of States

                     All physician-administered drugs                                                                                           31

                     All single-source and the top 20 multiple-source, physician-administered drugs                                              5

                     Some physician-administered drugs, but did not meet the DRA’s requirement                                                  12

                     Did not collect any rebates for physician-administered drugs                                                                1

                Source: OIG analysis of State responses to survey question, 2010.




                            Among the 13 States that reported not collecting rebates in accordance
                            with the DRA’s rebate requirements, only the District of Columbia
                            stated that it did not collect any rebates for physician-administered
                            drugs. 43 The remaining 12 States reportedly collected rebates on a
                            subset of physician-administered drugs (e.g., only rebates for
                            professional claims, only rebates for single-source drugs), but were not




                                42 However, two States that reported collecting rebates for all physician-administered

                            drugs had not invoiced manufacturers for first- and second-quarter 2009 rebates at the
                            time of our data request. Both States reported that they plan to invoice manufacturers
                            for these rebates at a later time and had collected rebates prior to 2009.
                               43 We estimate that the District of Columbia could have reduced its

                            physician-administered drug expenditures by at least 25 percent (estimated minimum
                            savings of $255,000 during the first and second quarters of 2009) had it collected rebates
                            for all physician-administered drugs in the first half of 2009. Because of limitations in
                            the data submitted by the States, we were unable to calculate potential savings for the
                            remaining 12 States that did not fully meet the DRA’s rebate collection requirements.



   OEI-03-09-00410          S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS              13
F   I   N   D I       N G    S


                            in full compliance with the DRA requirements.44 See Table 2 for an
                            overall description and Appendix B for a detailed description of States’
                            collection of rebates for physician-administered drugs as of June 2009.
                            As of June 2009, 86 percent of responding States reported meeting the
                            DRA’s requirement to collect NDCs on physician-administered drug claims
                            To facilitate rebate collection, the DRA also required States to collect
                            NDCs on claims for certain physician-administered drugs. By
                            June 30, 2009, 42 of the 49 responding States (86 percent) reported
                            that they required NDCs on all claims for physician-administered
                            drugs. 45 See Appendix B for a detailed description of States’ NDC
                            requirements as of June 2009.
                            On average, States reported spending $540,000 to implement the changes
                            necessary to collect NDCs for physician-administered drugs
                            The States’ costs to implement the necessary system changes to collect
                            NDC information averaged $540,000 (costs ranged from $0 to
                            $4 million). 46 States reported that these changes included updating
                            States’ claim systems to accept NDC codes, creating new edits to deny
                            claims billed without NDCs or with invalid NDCs, educating providers
                            about the NDC requirement, and maintaining a list of HCPCS codes
                            and NDCs (including a crosswalk).
                                                                   In total, 26 States provided
We could not determine the financial impact of                     complete data on the amount of
 collecting rebates for physician-administered                     rebates requested and collected
  drugs because of incomplete and potentially                      for physician-administered drugs
            inaccurate data provided by States                     in the first and second quarters
                                                                   of 2009. An additional 19 States
                            were either unable to provide complete rebate collections data or
                            reported accuracy issues with the data provided. Finally, three
                            more States had not invoiced manufacturers for rebates for
                            physician-administered drugs at the time of our request. In many
                            cases, there was substantial variability among the data provided by


                                44 According to the States’ responses, 3 of the 12 were or planned to be in full
                            compliance with the DRA’s rebate requirement by the end of 2009, and an additional 4 of
                            the 12 reported plans to meet the requirements in 2010 or 2011.
                               45 Six of the 42 States that required NDCs did not otherwise meet the DRA’s rebate

                            collection requirements.
                                46 Twenty-nine States were able to calculate and provide cost estimates. One of these

                            States reported that it makes continuous payments of approximately $1,700 per quarter
                            to update its system to collect NDCs. This State was not included in the average.



    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   14
F   I   N   D I       N G    S


                            responding States, casting doubts about their accuracy and reliability.
                            For these reasons, we were unable to calculate the total rebate dollars
                            all States collected and therefore could not determine the financial
                            impact rebate collections had on reducing prescription drug
                            expenditures.
                            States reported recouping between 3 and 96 percent of the amount paid
                            for physician-administered drugs by collecting rebates
                            The reimbursement and rebate data reported for
                            physician-administered drugs varied greatly among States. In fact,
                            the 26 States that provided rebate collections data reported recouping
                            between 3 and 96 percent of the amount paid for these drugs in the
                            first half of 2009 by collecting rebates. States also varied widely in the
                            amount that they reported spending on drugs. The 45 States that
                            provided reimbursement data reported paying between $503,000 and
                            $162 million for physician-administered drugs in the first and second
                            quarters of 2009. See Appendix C for the total amount reimbursed,
                            rebates requested, and rebates collected, as reported by all responding
                            States.
                            The percentage of reimbursement that States reported requesting in
                            rebates also varied widely. Seven States reported requesting in
                            rebates more than half of their total payments for physician-
                            administered drugs (one of these States requested almost three times
                            as much as it paid). However, another seven States reported
                            requesting rebates that represented less than 10 percent of total
                            payments.
                            Although some variation among States’ rebate figures would be
                            expected, this degree of variation calls into question the accuracy of
                            the data provided. In particular, variations did not relate to the size of
                            the State or the amount the State reported paying for
                            physician-administered drugs in the first and second quarters of
                            2009.47 For example, California requested $9.5 million in
                            physician-administered drug rebates for this period, even though it
                            reported paying $162 million for these drugs.48 Smaller States, such
                            as Tennessee and Wisconsin, paid significantly less for


                               47 The amount of rebates that should be requested by each State is determined by a

                            statutorily defined formula.
                              48 This State reported that it did not collect rebates for multiple-source,

                            physician-administered drugs in the first quarter of 2009.



    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   15
F   I   N   D I       N G    S


                            physician-administered drugs, but requested more than double the
                            dollar amount California requested in rebates. In another example,
                            when we requested data for an earlier study, Maryland reported
                            paying $25 million for physician-administered drugs in 2001. In
                            contrast, as part of our current study, Maryland reported paying
                            $503,000 for physician-administered drugs in the first half of 2009.49
                            Because it was beyond the scope of this study to verify the data
                            provided by States, we were not able to determine whether these
                            variations are a result of incorrect data or whether the amounts
                            provided are in fact correct.
                            Twenty-six States reported collecting $112 million in
                            physician-administered drug rebates for the first half of 2009
                            In total, 26 States provided complete data on the amount paid and the
                            amount of rebates requested and collected in the first and second
                            quarters of 2009. The 26 States reported paying $577 million for
                            physician-administered drugs and requesting $148 million in rebates
                            from manufacturers during that period. Based on the data
                            provided, these States collected $112 million in rebates for
                            physician-administered drugs in the first and second quarters of 2009,
                            resulting in an overall collection rate of 75 percent and representing
                            19 percent of their total payments for physician-administered drugs.
                            (Refer to Table 3 and Table C-1 in Appendix C for information about
                            overall and individual States’ rebate collections, respectively.)
                            Nineteen States either could not provide data on the amount of rebates
                            collected for physician-administered drugs or reported accuracy issues
                            with the collections data they provided
                            An additional 19 States stated that they were unable to provide
                            complete and/or reliable information about the total rebate dollars
                            collected from drug manufacturers for physician-administered drugs.50
                            Among these 19 States, 13 States provided no rebate collections data
                            on physician-administered drugs because they could not differentiate
                            between rebates collected for these drugs and rebates collected for




                                49 See OEI-03-02-00660 for Maryland’s reported reimbursement for
                            physician-administered drugs in 2001.
                                50 Even though specific rebate figures were not provided, six States provided

                            assumptions for the percentage of rebates collected. These assumptions are provided in
                            Table C-2 of Appendix C.



    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   16
F     I     N   D I    N G       S


                               other drugs covered under Medicaid, 51 3 States noted accuracy issues
                               with the data they provided, 52 1 State reported that it documented
                               only a portion of the rebates collected, 1 State reported that it did not
                               document any of the rebates collected, and 1 State could not readily
                               determine rebates collected.
                               These 19 States reported paying approximately $355 million for
                               physician-administered drugs in the first and second quarters of
                               2009.53 Even though the amount of rebates received was not provided,
                               12 of the 19 States could determine the amount of rebates requested
                               for physician-administered drugs. These 12 States requested
                               $57 million in rebates for physician-administered drugs for that
                               period. Refer to Table 3 and Table C-2 in Appendix C for overall and
                               individual rebate data for these States, respectively.
Table 3: Physician-Administered Drug Data Provided by States for the First
and Second Quarters of 2009

    Data Provided by States                             Amount Reimbursed                                  Amount of Rebates        Amount of Rebates
                                                                                                                  Requested                 Collected

    States with complete
    rebate data (n=26)                                                   $577,174,377                            $148,448,829              $112,066,822

    States with incomplete
    rebate data (n=19)                                                  $354,597,303*                            $56,982,977**       Could not determine

    States that did not invoice for rebates
    (n=3)                                                                  $51,957,878                                      $0                       $0

          Total based on data provided                                  $983,729,558*                           $205,431,806**             $112,066,822

Source: OIG analysis of State data, 2010.
* Three States were unable to provide the amount reimbursed for physician-administered drugs and therefore were not included in this total.
** Seven States were unable to provide the amount of rebates requested for physician-administered drugs and therefore were not included in
this total.



                                 51 Two additional States, Pennsylvania and Hawaii, were not included in the data
                               portion of the analysis because they did not provide any of the requested data (i.e., the
                               amount reimbursed, the amount of rebates requested, and the amount of rebates
                               received). Both States reported that they did not have the ability to determine any data
                               specifically for physician-administered drugs.
                                 52 For example, States reported that there were incorrect unit conversions in the

                               amounts invoiced to manufacturers or reported that the data did not account for any
                               adjustments made as a result of manufacturer disputes over the rebate amount invoiced
                               (most likely, from inaccurate unit conversions). A manufacturer that questions the
                               accuracy of the State’s rebate invoice may either pay for the disputed units and work with
                               the State to resolve the issue or withhold payment until the issue is resolved.
                                 53 This amount would be higher, but 3 of the 19 States were unable to provide the

                               amount reimbursed for physician-administered drugs.



     OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS                17
F   I    N   D I      N G    S


                            Three States did not provide rebate data because they had not invoiced
                            manufacturers for first half of 2009 rebates for physician-administered
                            drugs
                            Two States that reported that they collected rebates for all
                            physician-administered drugs never sent invoices to manufacturers for
                            rebates pertaining to utilization in the first and second quarters of
                            2009 because of computer issues. These States had therefore not
                            requested or collected rebates for physician-administered drugs at the
                            time of our data request. These two States paid $51 million for
                            physician-administered drugs for the period under review. Both
                            States reported that they collected rebates for such drugs prior to 2009
                            and that they plan to invoice for the rebates covered under the first
                            and second quarters of 2009.
                            Additionally, as previously mentioned, the District of Columbia
                            reported not collecting any rebates for physician-administered drugs
                            and therefore did not have any rebate data to report. In the first and
                            second quarters of 2009, the District of Columbia paid $999,000 for
                            these drugs. Refer to Table 3 and Table C-3 in Appendix C for overall
                            and individual rebate data for these States, respectively.


                                                                     In total, 29 of 48 States 54
        Twenty-nine States reported difficulties with
                                                                     reported difficulties with
          nonpayment of the requested rebates for                    manufacturer nonpayment of
                     physician-administered drugs                    all of the rebates requested for
                                                                     physician-administered drugs.
                            Many difficulties involved potentially incorrect or missing NDC
                            information on the claims submitted by providers. This would
                            frequently lead manufacturers to dispute the amounts States
                            requested on rebate invoices, including the amounts requested for
                            crossover claims (claims that Medicare contractors transfer to
                            Medicaid). 55 Other issues, however, involved more general problems
                            with certain manufacturers.



                                54 Although we received surveys from 49 States, the District of Columbia reported not
                            collecting rebates and was therefore exempt from answering the survey questions
                            pertaining to difficulties with rebate collections.
                                55 Crossover claims are those for beneficiaries who are eligible for both Medicare and

                            Medicaid and for which Medicaid receives rebates even if it paid only a small portion of
                            the claims.



    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   18
F   I   N   D I       N G    S


                            Twenty-one States reported provider or manufacturer issues with the
                            accuracy of the NDC information included on physician-administered
                            drug claims
                            Traditionally, providers billed for physician-administered drugs using
                            HCPCS codes rather than NDCs. Even though Medicaid payment for
                            a physician-administered drug claim is usually based on the HCPCS
                            code, the NDC is used for rebate processing, and therefore providers
                            typically need to include both codes on the claim for payment and
                            rebate collection. In many cases, the billing unit for an identical
                            quantity (e.g., 1,000 milligrams versus 1 gram) of a drug differs
                            between the two code types.
                            As a result, 21 States reported issues with the NDC information on the
                            claim, such as providers that inaccurately converted HCPCS code
                            units to NDC units, providers that listed NDCs that did not
                            correspond to the same drug as the HCPCS code, and manufacturers
                            that questioned the validity of the NDC information on the rebate
                            invoice. Two States mentioned that even though they had held
                            training sessions and made one-on-one educational calls, providers
                            continued to incorrectly report NDCs and the corresponding units. 56
                            Because States invoice manufacturers for rebates based on the
                            number of units billed, inaccurate conversions may cause States to
                            request substantially more or less than they are actually owed. This
                            could be a factor contributing to the significant variations among the
                            data reported by States. Among the 29 States that reported
                            difficulties with manufacturer nonpayment of rebates, 16 stated that
                            manufacturers questioned the validity of the NDC information,
                            questioned the conversions for the number of NDC units listed on the
                            invoice, or requested additional information to support the utilization
                            invoiced before making the rebate payments. In addition, a few of
                            these States also reported that verifying unit conversions can be
                            extremely time consuming and that this had sometimes delayed the
                            collection of rebates.
                            Seven States mentioned data issues with the CMS crosswalk file.
                            CMS maintains a file that crosswalks a drug’s HCPCS code to the


                                56 Additional States may have offered training to providers; however, we did not

                            specifically ask States to describe these efforts. States were included in this count if they
                            mentioned provider training when asked to generally describe issues with claims reviews
                            and rebate collections.



    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   19
F   I   N   D I       N G    S


                            corresponding NDC. However, a few of these States reported that
                            CMS’s currently available crosswalk file and the drug compendia
                            (e.g., First DataBank) that States use to obtain drug information
                            contain inaccuracies and omissions. Several States emphasized the
                            need for a comprehensive, universal, and accurate crosswalk file for all
                            States to use, specific only to rebateable physician-administered
                            drugs. 57 This could improve the efficiency of rebate collections by
                            assisting States in tasks such as claim validation and unit-of-measure
                            conversions.
                            Eighteen States reported that Medicare crossover claims for
                            physician-administered drugs do not typically include NDCs
                            When submitting crossover claims, Medicare providers are required to
                            enter NDCs and the corresponding quantities on claims for physician-
                            administered drugs. The Medicare contractor then transfers the claim
                            to Medicaid to determine any additional coverage. However, 18 States
                            reported that Medicare contractors do not typically provide them with
                            the NDC information when transferring the claims to the State
                            Medicaid agencies (either because Medicare providers do not include
                            the NDC information on the claims or because the Medicare
                            contractors do not transfer this information to Medicaid). Without an
                            NDC, a State would generally not be able to identify the appropriate
                            manufacturer to bill for rebates and would not be able to collect
                            rebates for these claims.
                            In addition, four States reported difficulties with manufacturer
                            nonpayment of rebates for crossover claims (three reported an increase
                            in disputes from manufacturers; one stated that manufacturers were
                            unwilling to pay rebates for these types of claims). 58 An additional two
                            States believed that CMS did not require Medicare providers to
                            include NDCs on crossover claims,59 and one State was unsure if CMS
                            allowed the collection of rebates on crossover claims for physician-
                            administered drugs.




                               57 Numbers relating to crosswalk files may be higher because States were never

                            explicitly asked on our survey about issues with CMS’s crosswalk file. States were
                            included in this count if they opted to mention crosswalk issues.
                               58 Three of these four States reported that an NDC was typically listed on a crossover
                            claim.
                                59 Both States reported that an NDC was typically listed on a crossover claim.




    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   20
F   I    N   D I      N G    S


                            Twelve States reported that certain manufacturers refused to pay rebates
                            or consistently disputed requested payments
                            Twelve States described issues with manufacturers other than
                            inaccurate unit conversions of NDCs and inaccurate reporting of NDC
                            information. Among these, States reported disputes that did not
                            appear to have a legitimate reason. States’ descriptions included
                            manufacturers that refused to pay rebates and manufacturers that
                            requested the same information each quarter to substantiate the
                            amount requested. One State reported that “simply those
                            manufacturers that like to dispute are determining how far they can
                            push things in this area.” This State reported that one manufacturer’s
                            refusal to pay rebates had resulted in a loss of more than $400,000.
                            Another State reported that a few manufacturers “have just not
                            responded to any invoices and letters.” CMS facilitates the Medicaid
                            Drug Rebate Dispute Resolution Program, which is specifically
                            designed for resolving these types of issues.60


                                                                       Physician-administered drug
        Thirty-one States had not implemented certain                  claims submitted by a 340B
          steps necessary for collecting rebates on all                entity generally do not
                 eligible physician-administered drugs                 qualify for rebates because
                            purchased by 340B entities                 the drugs are already
                                                                       purchased at a discounted
                            rate. All but three of the States reported that they have an edit or
                            another mechanism to prevent manufacturers from paying duplicate
                            discounts (this occurs when a manufacturer charges a discounted rate
                            for a 340B drug and also pays a rebate for that discounted drug). 61
                            For example, States identify claims submitted by 340B entities and
                            exclude these from rebate invoicing.
                            However, States may collect rebates for physician-administered drugs
                            in cases in which the physician-administered drugs were “carved out”
                            (i.e., the 340B entity maintains a separate inventory of non-340B
                            drugs for the purposes of dispensing to Medicaid patients and billing
                            to States at the regular Medicaid rates). In total, 31 States did not


                              60 We did not ask States to describe their knowledge and use of the Medicaid Drug

                            Rebate Dispute Resolution Program.
                              61 Section 340B of the Public Health Service Act requires States to establish a

                            mechanism to prevent duplicate discounts. 42 U.S.C. § 256b(a)(5).



    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   21
F   I   N   D I       N G    S


                            have an edit to identify carved-out claims for physician-administered
                            drugs submitted by 340B entities and/or did not require the 340B
                            entities to put NDCs on carved-out claims. Without edits to identify
                            the claim itself or an NDC to enable States to determine the correct
                            manufacturer to invoice, it would have been very difficult, if not
                            impossible, to collect the rebates.




    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   22
F   I   N
       R DE I C N OG MS M E N D A T I O N S

                      An April 2004 OIG report found that many States were not collecting
                      rebates for physician-administered drugs and could have saved
                      millions of dollars had they collected these rebates. Subsequently, the
                      DRA mandated that States collect rebates for all single-source,
                      physician-administered drugs and the 20 multiple-source,
                      physician-administered drugs with the highest dollar volume. The
                      DRA also mandated that States require providers to include NDCs on
                      claims for these drugs. According to States’ responses, as of
                      June 2009, the majority met the DRA’s requirements. However, many
                      States reported difficulties that would have prevented or delayed them
                      from collecting all rebates owed for these drugs.
                      In addition, 22 States could not provide complete rebate data for
                      physician-administered drugs. The available data provided by these
                      States and the complete data from the remaining 26 responding States
                      had such variability that we had concerns about the data’s accuracy
                      and reliability. In other words, not all States appear to be adequately
                      tracking rebates, which are an additional source of funds for the
                      States. Furthermore, factors such as manufacturer disputes, incorrect
                      NDC reporting by providers, the absence of NDCs on 340B claims and
                      crossover claims, and States’ inability to identify 340B claims most
                      likely contributed to States’ not collecting all rebates requested and/or
                      not requesting all rebates owed.
                      Impending changes mandated in the Patient Protection and Affordable
                      Care Act include expanding the Medicaid eligibility guidelines, which
                      will most likely result in an increase in the number of covered
                      beneficiaries. It is therefore imperative that States collect the
                      required physician-administered drug rebates in the most efficient
                      manner as soon as possible. Many States are currently experiencing
                      financial difficulties; eliminating delays and inefficiencies with rebate
                      collections would provide States with an additional source of funds in a
                      timelier manner.
                      Although CMS has undertaken numerous steps to ensure that States
                      comply with the DRA’s requirements for physician-administered
                      drugs, the findings of this report show that substantial issues remain
                      and need to be addressed. Therefore, we recommend that CMS:




    OEI-03-09-00410   S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   23
R   E C     O    M    M   E     N D           A T            I     O       N      S


                          Take action against States that do not meet the DRA’s requirement
                          to collect rebates on physician-administered drugs
                          As of June 2009, 13 States were not collecting rebates on
                          all single-source, physician-administered drugs and the
                          20 multiple-source, physician-administered drugs with the highest
                          dollar volume and therefore were not fully meeting the DRA’s
                          requirements. As a result, the FFP should not be available on any
                          eligible physician-administered drug claims for which States are not
                          seeking rebates. CMS should instruct these States to begin collecting
                          the required rebates as soon as possible and consider withholding
                          the FFP if States do not comply.
                          CMS should also emphasize to all State Medicaid agencies the
                          additional savings that could result from collecting rebates for
                          physician-administered drugs billed on applicable crossover claims
                          and carved-out 340B claims. States were not always obtaining the
                          NDC information on crossover or eligible 340B claims. CMS should
                          ensure that the Medicare providers billing crossover claims, the
                          Medicare contractors processing crossover claims, and the 340B
                          entities submitting carved-out claims include the NDC for rebate
                          purposes.
                          Ensure that all State agencies are accurately identifying and
                          collecting physician-administered drug rebates owed by
                          manufacturers
                          Many States could not determine the amount of rebates collected and
                          some States could not determine the amount of rebates requested for
                          physician-administered drugs. Those States that could provide this
                          information had such variation in their data that it calls into question
                          the accuracy of the data provided. Without accurate and complete
                          records, States cannot identify all of the rebates owed by
                          manufacturers for physician-administered drugs.
                          Furthermore, many States reported inaccurate NDC information on
                          the claims providers submit and an increase in disputes from
                          manufacturers regarding such claims. Any disputes would most likely
                          delay rebates or even reduce the amount of rebates collected, thereby
                          decreasing the State’s collection rate. To alleviate these difficulties,
                          CMS could encourage States to take advantage of the agency’s
                          Medicaid Drug Rebate Dispute Resolution Program.




    OEI-03-09-00410       S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   24
R   E C     O    M    M   E     N D           A T            I     O       N      S


                          Work with States to develop guidance for implementing edits that
                          increase the efficiency of physician-administered drug claim
                          reviews
                          Implementing additional edits may help to increase the accuracy of
                          physician-administered drug claims and the efficiency of the claims’
                          review, thereby reducing the time and effort States need to verify or
                          obtain accurate NDC information from providers. CMS had followed
                          up with States in 2008 about implementing edits for denying claims
                          without NDCs; however, based on our findings, not all States have
                          followed through with this implementation. CMS should continue to
                          work with States to develop guidance about edits that facilitate
                          efficient rebate collection and should encourage their implementation
                          among all States. These edits could include denying claims without an
                          NDC (including crossover claims); verifying the accuracy of the NDC,
                          the NDC’s units, and corresponding HCPCS code; and verifying that
                          the units for the NDC and HCPCS are converted correctly.
                          Edits, such as denials for claims without an NDC, may help facilitate
                          rebate collection by creating an incentive for providers to report
                          accurate NDC information. In addition, by having an edit(s) that
                          verifies the NDC aspect of the claim, manufacturer disputes about the
                          accuracy of claim information may be lessened. Also, States may
                          further reduce expenditures on physician-administered drugs by
                          having an edit to identify and enable rebate collection for the
                          carved-out physician-administered drug claims.
                          Work with the States to administer guidance to providers and
                          Medicare contractors about the rebate requirements for
                          physician-administered drugs
                          Although CMS has issued guidance to State Medicaid Directors and
                          providers in the past, our findings demonstrate that many States are
                          not meeting the DRA’s rebate requirements. CMS should reiterate the
                          importance of collecting rebates for physician-administered drugs to
                          States and should work with States to convey this information to
                          providers and Medicare contractors that submit claims for
                          dual-eligible beneficiaries. To that end, CMS should assist States in
                          developing guidance that clarifies the NDC requirement for the States
                          to pass on to all providers and Medicare contractors. Having States
                          offer guidance to providers and Medicare contractors about the DRA
                          requirements may eliminate any confusion or alleviate the resistance
                          providers may have to reporting NDCs. In addition, CMS should
                          ensure that States reemphasize to those Medicare contractors that

    OEI-03-09-00410       S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   25
R   E C     O    M    M   E     N D           A T            I     O       N      S


                          process claims for dual-eligible beneficiaries the importance of
                          providing the NDC information when the claims are crossed over to
                          Medicaid.
                          Ensure that the crosswalk file is complete, accurate, and
                          identifies rebateable physician-administered drugs
                          Although CMS currently publishes a quarterly crosswalk file, seven
                          States mentioned issues with the data in this file. Certain States
                          expressed concern with the accuracy and completeness of the data in
                          this file, as well as the file’s usefulness for identifying and
                          crosswalking rebateable physician-administered drugs. These States
                          mentioned that an official crosswalk that contains accurate and
                          up-to-date information for physician-administered drugs would make
                          rebate collections more efficient and timely. States that described
                          issues with the crosswalk file used the file either to identify the NDC
                          or to validate the NDC information on the claim.
                          The agency could also add an identifier to the crosswalk that would
                          enable States to easily identify rebateable physician-administered
                          drugs. This crosswalk would include all rebateable NDCs linked to
                          the corresponding HCPCS code, the units of service for each NDC and
                          HCPCS code, and a conversion factor for all available drug codes. All
                          States would have access to this crosswalk. It would be maintained
                          and updated frequently so that States could easily identify terminated
                          physician-administered drugs and physician-administered drugs
                          provided by manufacturers without a rebate agreement.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR
                          GENERAL RESPONSE
                          CMS concurred with our first three recommendations, but did not
                          concur with the remaining two. CMS also noted that it has taken
                          many steps to ensure that States are meeting the rebate requirements
                          for physician-administered drugs.
                          In concurring, CMS stated that before taking any action against
                          States, the agency needs to learn more about the systemic problems
                          that prevent States from collecting rebates for physician-administered
                          drugs and that it will continue to work with States to identify and
                          reduce these barriers. CMS also stated that it will reiterate the rebate
                          requirements in a release to States, as well as provide technical
                          assistance. CMS stated that if States do not meet the requirements, it
                          may consider withholding FFP in the future, although the agency

    OEI-03-09-00410       S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   26
R   E C     O    M    M   E     N D           A T            I     O       N      S


                          anticipates the additional assistance to the States, as described above,
                          will make such actions unnecessary.
                          CMS did not concur with our fourth recommendation, that it
                          administer guidance to providers and Medicare contractors about the
                          physician-administered drug rebate requirements. The agency
                          generally considers direct provider communication to be within the
                          States’ purview and has therefore left this responsibility to them.
                          CMS also maintains that Medicare contractors are aware of the
                          physician-administered drug requirements through Med Learn
                          Matters and have established procedures to accept NDCs on crossover
                          claims.
                          We have modified our original recommendation slightly to address
                          CMS’s statement that provider communication is a responsibility of
                          the State. However, because States reported that providers and
                          Medicare contractors often did not provide or provided incorrect NDC
                          information on physician-administered drug claims, we continue to
                          believe that additional communication with and education for
                          providers and Medicare contractors are warranted.
                          Finally, CMS did not concur with our fifth recommendation, that it
                          ensure that the crosswalk file is complete and accurate. According to
                          CMS, a State that is in full compliance with the DRA’s NDC
                          requirements should not need to rely on the crosswalk to properly
                          collect rebates. Although CMS’s assertion is accurate, not all States
                          fully met the DRA’s NDC requirements and therefore needed to use
                          the crosswalk. Additionally, some DRA-compliant States reported
                          using the crosswalk to perform tasks such as manual claim validations
                          and unit-of-measure conversions. Therefore, we continue to believe
                          that CMS should ensure that States have access to a reliable
                          crosswalk file.
                          For the full text of CMS’s comments, see Appendix D.




    OEI-03-09-00410       S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   27
      A P P E N D I X                                    ~           A


                  Detailed Description of the Medicaid Drug Rebate Calculation

                  Manufacturer requirements. Currently, manufacturers must submit
                  average manufacturer price (AMP) data to the Centers for Medicare &
                  Medicaid Services (CMS) for each of their covered outpatient drugs on
                  monthly and quarterly bases, although only the quarterly data are
                  used for rebate purposes.62 The AMP is defined as the average price
                  paid to the manufacturer for the drug in the United States by
                  wholesalers for drugs distributed to retail community pharmacies and
                  by retail community pharmacies that purchase drugs directly from the
                  manufacturer, with certain exclusions.63
                  Manufacturers must also provide CMS with the drug category for each
                  of their covered outpatient drugs in conjunction with AMP data.64 In
                  the Medicaid drug rebate program, drugs are generally categorized as
                  one of three types: single-source, innovator multiple-source, or
                  noninnovator multiple-source. In general terms, a single-source drug
                  would typically be a brand-name product with no available generic
                  versions. An innovator multiple-source drug would typically be a
                  brand-name product that has available generic versions. A
                  noninnovator multiple-source drug would simply be a generic version
                  of any multiple-source product.
                  Manufacturers of single-source and innovator multiple-source drugs
                  are also required to provide CMS with the best price available for each
                  covered outpatient drug. 65 Best price is defined as the lowest price
                  available from the manufacturer during the rebate period to any
                  wholesaler, retailer, provider, health maintenance organization,
                  nonprofit entity, or governmental entity within the United States,
                  with certain exceptions.66 Manufacturers of noninnovator
                  multiple-source drugs are not required to provide their best price.
                  Basic rebate. CMS uses the manufacturer-reported AMP data and
                  drug type information to calculate a unit rebate amount (URA) for


                      62 Section 1927(b)(3) of the Social Security Act (the Act).
                      63 Section 1927(k)(1) of the Act, as amended by section 2503(a)(2) of the Patient

                  Protection and Affordable Care Act (ACA), P.L. 111-148.
                      64 Section II of the rebate agreement between the manufacturer and the Secretary of

                  Health & Human Services.
                      65 Section 1927(b)(3)(A)(i)(II) of the Act.
                      66 Section 1927(c)(1)(C)(i) of the Act.




OEI-03-09-00410   S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   28
A   P P     E   N     D I      X           ~            A


                            each covered outpatient drug. The formula used to determine the
                            URA depends on the drug category reported by the manufacturer. 67
                            From 1996 to 2009, the basic URA for single-source and innovator
                            multiple-source drugs was the greater of 15.1 percent of the AMP or
                            the difference between the AMP and best price, and the basic URA for
                            noninnovator multiple-source drugs was 11 percent of the AMP.68, 69
                            Additional rebate for innovator drugs. Manufacturers of single-source
                            and innovator multiple-source drugs are required to pay an additional
                            rebate if the drug’s AMP increases faster than inflation. 70, 71, 72 To
                            determine whether manufacturers owe an additional rebate for a drug,
                            its “base date” AMP is updated for the present quarter using the
                            Consumer Price Index published by the Bureau of Labor Statistics. 73
                            If the resulting figure is greater than or equal to the reported AMP in
                            the quarter, no additional rebate is owed (i.e., the AMP did not
                            increase at a greater rate than inflation). If the resulting figure is less
                            than the reported AMP in the quarter, then the additional URA is
                            equal to the difference between the reported AMP and the inflation-
                            adjusted base date AMP.




                                67 Section 1927(c) of the Act.
                                68 Sections 1927(c)(1)(A) and (c)(3)(A) of the Act.
                                69 Pursuant to section 2501(a) of the ACA, as of January 1, 2010, the basic URA for
                            single-source and innovator multiple-source drugs was increased to the greater of
                            23.1 percent of the AMP or the difference between the AMP and best price (with certain
                            exceptions). Pursuant to section 2501(b) of the ACA, the basic URA for noninnovator
                            multiple-source drugs was increased to 13 percent of the AMP.
                                70 Section 1927(c)(2) of the Act.
                                71 Manufacturers of noninnovator multiple-source drugs are not required to pay an

                            additional rebate.
                              72 CMS, Unit Rebate Amount Calculation. Accessed at http://www.cms.hhs.gov on

                            August 20, 2009.
                             73 Base date AMP is the AMP in the first full quarter that a drug is on the open

                            market.



    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   29
               A P P E N D I X                                       ~             B

State Responses About the Deficit Reduction Act of 2005 Requirements for
Physician-Administered Drugs


Table B-1: Detailed Description of Responses From States That Reported Meeting the
Deficit Reduction Act of 20051 Rebate Requirements for Physician-Administered
Drugs as of June 2009

                                                                Did the State Require National
State       Physician-Administered Drugs for                                   Drug Codes on                               State’s Action When a National Drug
         Which States Collected Rebates in the                  Physician-Administered Drug                             Code Was Not Included on a Claim as of
                             First Half of 2009                       Claims as of June 2009?                                                       June 2009

                                                                                                                              Crosswalks the Healthcare Common
                                                                                                                         Procedure Coding System (HCPCS) codes
                                                                                                                                  to national drug codes (NDC) for
                                                                                                                                    single-source drugs; denies for
AK               All physician-administered drugs                                                               Yes                           multiple-source drugs

        All single-source and the 20 highest dollar                                                                                 Crosswalks HCPCS to NDC for
                           volume multiple-source,                                                                                  single-source drugs; denies for
AL2                  physician-administered drugs                                                               Yes                          multiple-source drugs


AR               All physician-administered drugs                                                               Yes                                Denies the claim


CA3              All physician-administered drugs                                                               Yes                                Denies the claim

        All single-source and the 20 highest dollar                                                                                 Crosswalks HCPCS to NDC for
                           volume multiple-source,                                                                      single-source drugs; denies for the required
CO                   physician-administered drugs                                                               Yes                    top 20 multiple-source drugs

CT               All physician-administered drugs                                                               Yes                                Denies the claim

DE               All physician-administered drugs                                                               Yes                                Denies the claim

GA               All physician-administered drugs                                                               Yes                                Denies the claim

HI               All physician-administered drugs                                                               Yes     Not applicable (providers bill only with NDC)

        All single-source and the 20 highest dollar
                           volume multiple-source,
IA                   physician-administered drugs                                                               Yes                     Denies the line item of claim

ID               All physician-administered drugs                                                               Yes                                Denies the claim
  4
IL               All physician-administered drugs                                                               Yes                                Denies the claim

IN               All physician-administered drugs                                                               Yes                                Denies the claim

KS               All physician-administered drugs                                                               Yes                              Denies claim detail

        All single-source and the 20 highest dollar
                           volume multiple-source,
KY                   physician-administered drugs                                                               Yes                                Denies the claim
                                                                                                                                                 continued on next page




           OEI-03-09-00410          S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS                    30
              A    P P        E    N    D I       X           ~            B


Table B-1: Detailed Description of Responses From States That Reported Meeting the
DRA’s Rebate Requirements for Physician-Administered Drugs as of June 2009
(Continued)

                                                                           Did the State Require National
    State          Physician-Administered Drugs for                                       Drug Codes on                               State’s Action When a National Drug
                Which States Collected Rebates in the                      Physician-Administered Drug                             Code Was Not Included on a Claim as of
                                    First Half of 2009                           Claims as of June 2009?                                                       June 2009

    MA                    All physician-administered drugs                                                                 Yes                                Denies the claim

    MD                    All physician-administered drugs                                                                 Yes                                Denies the claim

    MN                    All physician-administered drugs                                                                 Yes                                Denies the claim

    MS                    All physician-administered drugs                                                                 Yes     Not applicable (providers bill only with NDC)

    MT                    All physician-administered drugs                                                                 Yes                                Denies the claim

               All single-source and the 20 highest dollar
                                  volume multiple-source,
    NC                      physician-administered drugs                                                                   Yes                          Denies the claim detail

    ND                    All physician-administered drugs                                                                 Yes                                Denies the claim

    NH                    All physician-administered drugs                                                                 Yes                                Denies the claim

    NV                    All physician-administered drugs                                                                 Yes                                Denies the claim

    OK                    All physician-administered drugs                                                                 Yes                                Denies the claim

    PA                    All physician-administered drugs                                                                 Yes     Not applicable (providers bill only with NDC)

    RI4                   All physician-administered drugs                                                                 Yes                                Denies the claim

    SC                    All physician-administered drugs                                                                 Yes                                Denies the claim

    SD                    All physician-administered drugs                                                                 Yes                                Denies the claim

    UT                    All physician-administered drugs                                                                 Yes                                Denies the claim

    VA                    All physician-administered drugs                                                                 Yes                                Denies the claim

    VT                    All physician-administered drugs                                                                 Yes                          Denies the claim detail

    WA                    All physician-administered drugs                                                                 Yes                                Denies the claim

    WI                    All physician-administered drugs                                                                 Yes                                Denies the claim

    WV                    All physician-administered drugs                                                                 Yes                                Denies the claim

    WY                    All physician-administered drugs                                                                 Yes                                Denies the claim
Source: Office of Inspector General (OIG) analysis of State survey responses, 2010.
1
    DRA.
2
    Collected rebates for 29 multiple-source, physician-administered drugs that either are currently or have previously been on the top 20 list.
3
    Collected only single-source rebates in the first quarter of 2009, but collected rebates for all physician-administered drugs in the second quarter of 2009.
4
    These States collected rebates prior to 2009, but at the time of our data request, they had not yet invoiced for first- and second-quarter 2009 rebates.



                  OEI-03-09-00410              S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS                    31
        A   P P      E    N    D I      X           ~            B


Table B-2: Detailed Description of Responses From States That Reported Not Meeting
the DRA’s Rebate Requirements for Physician-Administered Drugs as of June 2009

                                                                 Did the State Require National
State      Physician-Administered Drugs for                                     Drug Codes on                               State’s Action When a National Drug
        Which States Collected Rebates in the                    Physician-Administered Drug                             Code Was Not Included on a Claim as of
                            First Half of 2009                         Claims as of June 2009?                                                       June 2009

DC                             No rebate collection                                        No NDC required                                        No rebate collection

                                                                                                                               Crosswalks the HCPCS to the NDC for
                                                                                                                              single-source drugs; for multiple-source
         All physician-administered drugs with an                                                                             drugs, denies professional claims; pays
        NDC and single-source drugs that can be                  No NDC required for institutional                           institutional and 340B claims regardless
FL                       crosswalked to an NDC                                             claims                                                             of NDCs

                                                                 No NDC required for institutional
LA1                    For professional claims only                                        claims                                     Denies professional claims only

               All physician-administered drugs for
                   professional claims; only the top
                                20 multiple-source,
                   physician-administered drugs for              No NDC required for institutional                               Except for single-source institutional
ME2                              institutional claims              claims for single-source drugs                                           claims, denies the claims

                                                                                                                         Denies all single-source drug claims; denies
                                                                                                                        professional claims for multiple-source drugs
                 All single-source drug claims and                                                                                    (but pays institutional claims for
MI3              multiple-source outpatient claims                                                               Yes                           multiple-source drugs)

                                                                                                                              Crosswalks the HCPCS to the NDC for
                                                                                                                          single-source drugs; in certain cases, pays
              All outpatient physician-administered                                                                          providers on a HCPCS with no NDC for
MO            drugs and the top 20 inpatient drugs                                                               Yes                           multiple-source drugs

                                                                                                                             Crosswalks the HCPCS to the NDC for
                                                                                                                            single-source drugs; for multiple-source
                                                                                                                          drugs, attempts to contact provider for the
             All physician-administered drugs if an                                                                      NDC; otherwise, pays the claim and collects
NE                               NDC is submitted                                                                Yes                                       no rebate

             All physician-administered drugs if an              No NDC required for institutional
NJ4                              NDC is submitted                                          claims                                     Denies professional claims only

                                                                                                                             Crosswalks the HCPCS to the NDC for
                                                                                                                            single-source drugs; for multiple-source
                                                                                                                          drugs, attempts to contact provider for the
             All physician-administered drugs if an                                                                      NDC; otherwise, pays the claim and collects
NM5                              NDC is submitted                                          No NDC required                                                 no rebate


                                                                                                                                                   continued on next page




            OEI-03-09-00410          S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS                     32
               A    P P        E     N    D I       X           ~            B


Table B-2: Detailed Description of Responses From States That Reported Not Meeting
the DRA’s Rebate Requirements for Physician-Administered Drugs as of June 2009
(Continued)

                                                                             Did the State Require National
                   Physician-Administered Drugs for                                         Drug Codes on                               State’s Action When a National Drug
    State
                Which States Collected Rebates in the                        Physician-Administered Drug                             Code Was Not Included on a Claim as of
                                    First Half of 2009                             Claims as of June 2009?                                                       June 2009


               All single-source and the 20 highest dollar                                                                                Crosswalks the HCPCS to the NDC for
               volume multiple-source drugs if an NDC is                                                                                 single-source drugs; for multiple-source
         6
    NY                                         submitted                                               No NDC required               drugs, pays the claim and collects no rebate

                                                                                                                                          Crosswalks the HCPCS to the NDC for
                                                                                                                                         single-source drugs (no edit that denies
         7
    OR                             All single-source drugs only                                                              Yes            physician-administered drug claims)

               Physician-administered drugs if an NDC is                                                                               Pays the claim, but does not invoice for a
    TN                                         submitted                                                                     Yes                                          rebate

                                                                                                                                        Crosswalks to the NDC for single-source
                                                                                                                                         drugs; denies claims for multiple-source
    TX                                   Outpatient claims only                                                              Yes                                            drugs
Source: OIG analysis of State survey responses, 2010.
1
    For institutional claims, Louisiana reported that it required NDCs and began to deny institutional claims without NDCs on July 6, 2009; the State reported
invoicing manufacturers for rebates on institutional claims in the third quarter of 2009.
2
    Maine reported that it had plans to deny institutional claims in April 2010.
3
    Michigan reported that it anticipates having an edit to deny institutional claims in the first quarter of 2010.
4
    New Jersey reported that it required NDCs for institutional claims and began denying those without NDCs on November 1, 2009.
5
    New Mexico reported that it had plans to begin denying claims in September 2010.
6
    New York reported that it required NDCs and began denying claims without NDCs in September 2009.
7
    Oregon reported that it had plans to deny claims beginning in the first quarter of 2011.




                   OEI-03-09-00410               S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS                   33
       A P P E N D I X                              ~             C

Physician-Administered Drug Data Reported by States for the First Half of 2009

Table C-1: Data Reported by States With Complete First- and Second-Quarter
2009 Rebate Collection Information for Physician-Administered Drugs


State                  Amount Reimbursed                                     Rebates Requested                     Rebates Collected

AR                                       $4,048,745                                            $1,289,196                     $500,913

CA1                                 $161,713,669                                               $9,493,609                  $6,126,611

CO                                    $43,629,213                                              $2,321,421                  $1,367,797

GA                                    $32,903,117                                         $14,277,592                    $12,899,334

IA                                       $7,066,332                                            $1,329,335                  $1,194,332

IN                                    $49,896,247                                         $16,025,453                      $5,173,816

KS                                    $12,671,634                                              $3,573,547                  $3,185,071

LA                                    $31,769,620                                              $3,355,007                  $2,791,403

MA                                          $673,636                                           $1,894,216                     $649,389

MD                                          $502,569                                            $216,153                       $75,401

ME2                                      $2,734,419                                            $1,293,708                  $1,129,499

MN                                    $11,762,804                                              $4,318,050                  $3,470,199

MS                                       $8,904,654                                            $5,731,922                  $2,857,323

MT                                       $4,204,705                                            $1,047,235                     $897,013

NC                                    $43,420,571                                         $14,763,273                    $13,134,910

ND                                       $1,948,523                                            $1,245,305                     $548,465

NM                                       $1,621,813                                             $261,676                      $245,420

NY                                    $17,228,950                                              $7,193,340                  $6,425,807

OH                                    $12,761,519                                              $1,671,643                  $1,644,731

OR                                       $4,031,303                                            $4,538,946                     $240,682

TN                                    $32,793,117                                         $20,500,859                    $19,278,252

UT                                       $7,869,410                                            $1,434,168                  $1,212,263
                                                                                                                  continued on next page




 OEI-03-09-00410   S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS                34
A      P P        E    N    D I       X           ~            C


Table C-1: Data Reported by States With Complete First- and Second-Quarter
2009 Rebate Collection Information for Physician-Administered Drugs
(Continued)


    State                              Amount Reimbursed                                     Rebates Requested                     Rebates Collected

    WA3                                               $14,550,089                                              $1,192,532                     $706,330

    WI                                                $59,564,540                                         $25,411,782                    $24,820,264


    WV                                                   $8,070,634                                            $3,832,915                 $1,275,701


    WY                                                      $832,546                                            $235,942                      $215,897


         Total4                                     $577,174,377                                         $148,448,829                   $112,066,822
Source: Office of Inspector General (OIG) analysis of State rebate data, 2010.
1
    In the first quarter of 2009, California was collecting rebates only for single-source, physician-administered drugs.
2
    At the time of our data collection, Maine was still invoicing for rebates applicable to second-quarter 2009 institutional claims.
3
    At the time of our data request, Washington had not invoiced manufacturers for second-quarter 2009 rebates.
4
    Figures do not add to totals because of rounding.
Note: For certain States, the rebates requested exceed the amounts reimbursed. These States reported that this may occur, for
example, when the rebate rate is greater than what they pay in reimbursement or because the reimbursement amount does not
include third-party liabilities, copays, etc. The State can invoice for the full rebate amount, which may include these figures.




      OEI-03-09-00410              S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS              35
        A     P P    E   N     D I      X           ~            C



Table C-2: Data Reported by States Without Complete First- and Second-Quarter 2009
Rebate Collection Information for Physician-Administered


                                                 Rebates                         Rebates
State       Amount Reimbursed                  Requested                        Collected                                                 Reason for Missing Data

                                                                                                       Could not differentiate between physician-administered and
                                                                                          DK1          all other Medicaid claims, but provided an estimated rebate
AK                  $23,430,017                $1,407,365                                                                       collection rate of nearly 100 percent


                                                                                                       Could not differentiate between physician-administered and
AL                   $8,973,445                $2,651,094                                  DK                                            all other Medicaid claims


                                                                                                       Could not differentiate between physician-administered and
                                                                                           DK          all other Medicaid claims, but provided an estimated rebate
CT                             DK              $6,551,347                                                                              collection rate of 67 percent


                                                                                                       Could not differentiate between physician-administered and
DE                   $1,683,131                   $216,430                                 DK                                            all other Medicaid claims



FL                  $46,127,270              $19,563,323                                   DK                             Documented some of the rebates collected



ID                   $3,837,264                             DK                             DK                    Did not document any rebates requested or collected


                                                                                                       Could not differentiate between physician-administered and
                                                                                           DK          all other Medicaid claims, but provided an estimated rebate
KY                  $14,780,463                $1,272,449                                                                       collection rate of nearly 100 percent


                                                                                                       Could not differentiate between physician-administered and
                                                                                           DK          all other Medicaid claims, but provided an estimated rebate
MI                  $30,647,239                $8,720,352                                                                        collection rate of nearly 98 percent


                                                                                                       Could not differentiate between physician-administered and
MO                  $16,881,431                             DK                             DK                                            all other Medicaid claims


                                                                                                           Reported unit conversion inaccuracies in the rebate data,
NE2                  $3,641,198                             DK                             DK                 but working with manufacturers to make adjustments


                                                                                                       Could not differentiate between physician-administered and
                                                                                                       all other Medicaid claims, but provided an estimated rebate
NH                  $14,960,227                $1,205,831                                  DK                                   collection rate of nearly 100 percent


                                                                                                       For rebates requested, reported inaccuracies with the data;
                                                                                                              for rebates collected, could not differentiate between
NJ                   $3,514,685                             DK                             DK                physician-administered and all other Medicaid claims
                                                                                                                                                continued on next page




             OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS                     36
               A     P P       E    N    D I       X           ~            C




Table C-2: Data Reported by States Without Complete First- and Second-Quarter 2009
Rebate Collection Information for Physician-Administered Drugs (Continued)



                                                            Rebates                         Rebates
    State          Amount Reimbursed                      Requested                        Collected                                                 Reason for Missing Data

                                                                                                                  Could not differentiate between physician-administered and
                                                                                                                    all other Medicaid claims for reimbursement and rebates
    NV                                  DK                             DK                             DK                requested; rebates collected amount was an estimate


                                                                                                                  Could not differentiate between physician-administered and
    OK                                  DK                             DK                             DK                                            all other Medicaid claims


                                                                                                                  Could not differentiate between physician-administered and
    SC                     $114,155,241                   $6,901,292                                  DK                                            all other Medicaid claims


    SD                        $1,388,505                  $1,052,284                                  DK                           Could not readily determine rebates collected


    TX                       $56,645,451                               DK                             DK               Reported unit conversion inaccuracies in the rebate data


                                                                                                                  Could not differentiate between physician-administered and
                                                                                                                  all other Medicaid claims, but provided an estimated rebate
    VA                       $12,280,254                  $6,954,167                                  DK                                   collection rate of nearly 100 percent


                                                                                                                  Could not differentiate between physician-administered and
    VT                        $1,651,481                     $487,043                                 DK                                            all other Medicaid claims

                                                                                          Could not
      Total                $354,597,303                 $56,982,977                       determine

Source: OIG analysis of State rebate data, 2010.
1
    DK = State could not determine the data requested.
2
    The amount reimbursed is only for the first quarter of 2009. In addition, Nebraska had yet to receive any rebate payments for the first quarter of 2009 and
had not invoiced for second-quarter 2009 rebates at the time of our request.




                    OEI-03-09-00410             S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS                  37
                 A   P P      E    N    D I       X           ~            C



Table C-3: Data Reported by States That Did Not Invoice for Physician-Administered
Drug Rebates During the First and Second Quarters of 2009


                                                          Rebates                         Rebates
    State        Amount Reimbursed                      Requested                        Collected                                                     Reason for Missing Data

    DC                          $999,379                               $0                            $0                                                    Did not collect rebates
                                                                                                                            At the time of this study, this State had not yet billed
    IL                      $47,461,395                                $0                            $0                                   first- and second-quarter 2009 rebates
                                                                                                                            At the time of this study, this State had not yet billed
    RI                       $3,497,104                               $01                            $0                                   first- and second-quarter 2009 rebates


         Total              $51,957,878                                $0                            $0

Source: OIG analysis of State rebate data, 2010.
1
    This State estimated that $550,000 in rebates for physician-administered drugs will be invoiced for the first and second quarters of 2009.




                     OEI-03-09-00410           S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS                       38
      A P P E N D I X                                          ~           D


     Agency Comments




                                                                                                                       Centers 10' Medica,e & Medicaid Services



                                                                                                                       Administrator
                                                                                                                       Washington,   DC 20201




                  DATE:               MAR 2 3 2011
                  TO:                Daniel R. Levinson
                                     Inspector General

                  FROM:              Donald M. Berwick, M,D:
                                                                                  /S/
                                     Administrator

                  SUBJECT:           Office of Inspector General (OIG) Draft Report: "States' Collection of Medicaid
                                     Rebates for Physician-Administered Drugs" (OEI-03-09-0041 0)


                  Thank you for the opportunity to review and comment on the subject OIG draft report. The
                  purpose of this report was to determine the compliance of States with the Medicaid drug rebate
                  requirements for physician-administered drugs.

                  The Deficit Reduction Act of2005 (ORA) specifically requires that States collect rebates on
                  claims for certain physician-administered drugs for Federal matching funds to be available. The
                  ORA also mandated that claims for physician-administered drugs include national drug codes
                  (NOCs), thereby allowing States to invoice manufacturers that are responsible for paying rebates.
                  Since the passage of the ORA, the Centers for Medicare & Medicaid Services (CMS) has taken
                  many steps to ensure that States are meeting the new rebate requirements for physician-
                  administered drugs.

                  OJG Findings

                  The OIG found that as of June 2009, 42 of 49 responding States reported meeting the ORA's
                  requirement to collect NDCs on claims for physician-administered drugs. The findings noted
                  that States may have collected OCs for physician-administered drugs and still not have met the
                  ORA's rebate collection requirements. By June 2009,73 percent of responding States reported
                  meeting or exceeding the ORA's requirement to collect rebates for certain physician-
                  administered drugs. Specifically, 36 of 49 responding States reported collecting rebates on all
                  single-source physician-administered drugs and the 20 multiple source physician-administered
                  drugs with the highest dolJar volume, as required by the ORA. An additional 12 States reported
                  collecting rebates on a subset of physician-administered drugs, but were not in full compliance
                  with the ORA's rebate requirements. Only I State reported that it did not collect rebates on any
                  physician-administered drugs.




OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS                           39
A   P P     E   N     D I      X           ~            D




    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   40
A   P P     E   N     D I      X           ~            D




    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   41
A   P P     E   N     D I      X           ~            D




    OEI-03-09-00410         S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   42
A   P P
       A EC NK DN I OX W ~L E D D G M E N T S

                      This report was prepared under the direction of Robert A. Vito,
                      Regional Inspector General for Evaluation and Inspections in the
                      Philadelphia regional office, and David E. Tawes, Director of the
                      Medicare and Medicaid Prescription Drug Unit.
                      Stephanie Yeager served as the team leader for this study. Other
                      principal Office of Evaluation and Inspections staff from the
                      Philadelphia regional office who contributed to the report include
                      Kevin McAloon. Central office staff who contributed include Kevin
                      Manley and Arianne Spaccarelli.




    OEI-03-09-00410   S TAT E S ’ C O L L E C T I O N   OF   M E D I C A I D R E B AT E S   FOR   PHYSICIAN-ADMINISTERED DRUGS   43
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
